MISCODING PATIENT TRANSFERS: EFFECT ON MEDICARE PAYMENT
                  NA TIONAL PROGRAM INSPECTION




   S1.J.VICI.t.




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS

                                                 JUNE 1988
                              Office of the Inspector General

The mission of the Office of Inspector General (OIG) is to promote the efficiency,
effectiveness and integrity of programs in the United States Department of Health and Human
Servces (HHS). It does this by developing methods to detect and prevent fraud , waste and
abuse. Created by statute in 1976 , the Inspector General keeps both the Secretary and the
Congress fully and currently informed about programs or management problems       and
recommends corrective action. The OIG performs its mission by conducting audits
investigations and inspections with approximately 1 200 staff strategically located around the
country.



                              Office of Analysis and Inspections

This report is produced by the Office of Analysis and Inspections (OAl), one of the three major
offices within the OIG. The other two are the Office of Audit and the Office of Investigations.
The OAI conducts inspections which are , tyically, short-term studies designed to determine
program effectiveness , efficiency and vulnerability to fraud or abuse.

This report entitled " Miscoding Patient Transfers: Effect on Medicare Payment " this
inspection was conducted to assess the vulnerabilities within Medicare Prospective Payment
System (PPS) rules concerning the transfer of a patient from one hospital to another.

This report was prepared by the Regional Inspector GeneraJ , Office of Analysis and
Inspections , Region VI (Dallas). Assisting the Regional Inspector General (Ralph Tunnell) in
this project were the following people.

Dallas Region                                                          Headquarters
Kevin Golladay, M.                                                     Kitty Ahern
                                                                       Mary Hogan
    MISCODING PATIENT TRANSFERS:   EFFECT ON MEDICARE PAYMENT




RICHARD P. KUSSEROW
INSPECTOR GENERAL                                  JUE 1988

CONTROL #OAI- 06- 87- 00043
     ...
      ....-- . -
       ....     , ..

                .,.
              ....
        - ..-..
              '.-
             ..       .--     ...
                               ... ...
                                   ..' ..
                                       ..




             $39. 9      Milion



                        ijt


1985 MEDCARE OVERPAYMENTS DUE TO
 HOSPIT AL           SCODING OF TRANSFERS

                                     EXECUTIVE SUMMARY

PURPOSE

The purposes of this inspection were: to determine if overpayments were made to
hospitals under the prospective payment system (PPS) because of patient transfers not
correctly identified during the Medicare claim payment process; to assess the conditions
causing the overpayments; and to identify procedures to assure accurate payments in the
future.
BACKGROUND

The Medicare prospective payment system was implemented in October 1983 to control
inpatient hospital reimbursements , the largest single component of Medicare spending.
The PPS is based on fixed per-case payment for diagnosis-related groups (DRGs). While
most PPS payments are for the fixed DRG amount , more or less than the DRG rate can
be paid.

When a patient is transferred from one short- term acute hospital to another , the first
hospital is paid a proportional share up to the full DRG payment based upon the length
of the patient's hospital stay. In order for the intermediary to correctly pay for transfers
hospitals must indicate on the biling form when transfers occurred , or the transfer must
be detected by peer review organization (PRO) review. The PRO review of transfers

contractor.
must be communicated to the intermediary in order for claims to be correctly paid by the


FINDINGS

This inspection centered upon a statistically-valid sample of 1985 Medicare hospital
discharges where an undetected transfer , material to Medicare payment , may have
occurred.
                     In the sample of possible overpaid claims, we found               87.    percent were

                     miscoded transers.
                     An estimated  $39. million was overpaid in Fiscal Year 
                1985   becaue of
                     incorrect coding of traners to other short- term           acute hospital.

                      The PRO review resulted in only         claim from the      48   possible
                     overpayments being correctly       paid through intermediar adjustment.

                     Sixty-nine percent of the overpaid claims were reviewed by a PRO.
                     Eighty- three percent of the PRO reviews identifed a transer but only
                  . 13 
percent were communicated to the intermediary responsible for
                      correcting payment. Becaue of the small sample size, these percentages
                      are not projectable to the universe.

                    The    PRO/intermediar communication                   failures were due to a lack of
                    clear instructions and procedures concerning PRO identifed transfers.
                     The    PRO review is the only current review process available to identify
                    unreported tranfers.               Thirt-one percent of the unreported 1985
                    transers were not subject to PRO review.
                    Most of the transers were mad to obtain medical care not available in
                    the transferrng hospital. Cardiac care accounted for                 55   percent of the
                    transfers.

RECOMMENDATIONS

Instructions concerning transfer cases should provide for clear responsibility on the part
of the hospital , the intermediary and the PRO for identification and correct payment of
the transfer. Specifically, the Health Care Financing Administration (HCFA) should:

                    Periodically review (or provide the PRO access to national data) the
                    posted PPS claims to identify those where interstate movement of an
                    inpatient occurred and where the stay in the first hospital is less than
                    the national mean. Claims identified should be referred to the PRO
                    servicing the first hospital for a determination on the transfer
                    question.

The HCFA responded that the operational problems and cost associated with
implementation of this recommendation would far exceed the return in benefits. Also , it
stated that insufficient data was given to warrant such review.

The HCFA has acknowledged that a vulnerability exists within the present reimburse­
ment system but is unable to correct the problem because of a lack of required computer
system sophistication. Based on our results , an estimated $5 million in 1985 was overpaid
because of undetected interstate transfers. As HCF A develops the systems capability to
identify these claims , data concerning them should be provided to the PROs to
determine whether a transfer had taken place , and if so , to adjust the payment as needed.

                    Modify the Medicare Hospital Manual to clearly define which
                    situations should be reported as a transfer.

The HCFA concurred with this recommendation and is in the process of preparing
intructions to provide additional clarification to hospitals.


                    Strengthen PRO review procedures to include all admissions within
                    day of discharge from another PPS hospital.
The new PRO contract requirements for 1988     require the review of 25   percent of all
readmissions to another or the same PPS hospital within   30 days of discharge. The
HCF A believes that this will address this problem , because hospitals found to have a
pattern of improperly coding discharge destinations will be placed on intensified review.

We continue to believe that requiring the PRO to review 100 percent of readmissions
within 1 day will not only identify undetected transfers , but would be a valuable source of
information concerning premature discharge and other potential mistreatment.

                    Alter the magnetic tape specifications for communication of PRO
                    adjustments to the intermediary to include all transfer status changes
                    as an adjustment code.

The HCFA concurred with the recommendation and is in the process of making
computer tape specification changes.
                                     ............................................
                   ......... ........................
                              ...............          ..... ...........................
                                              ................
                                          ........ ............



                   TABLE OF CONTENTS

                                                                                    page

EXECUTIVE SUMMARY

INTRODUCTION.... ....... ...... .......................................... 1

OBJECTIVES............... .....                  .................................... 5


M ETH 0    DOLOGY ................. ....                      ........................ 7


FI ND I NGS   ..... ........ 


       - Medicare Overpayments
       - Flawed Communication between

                PRO and Intermediary

       - Hospital Reasons for Incorrect Billng
RECOMMENDATIONS

AD DEN DU M                                                  ......................... 19
                               INTRODUCTION


                      The Tax Equity and Fiscal Responsibilty Act of 1982 (TEFRA)
                      and the Social Security Amendments of 1983 made fundamental
                      changes in the Medicare payment system for inpatient hospital
                      servces.

                      Prior to 1983 ,   the Medicare program paid a hospital based upon
                      the reasonable cost of the hospital' s Medicare services. This
                      retrospective cost reimbursement system had serious drawbacks.
                      Inadequate controls over both the volume of services provided and
Cost Reimbursement    the cost of hospital operations produced double digit annual
System                percentage increases in program expenditures and predictions of
                      Medicare insolvency in the 1990s. Legislative changes in 1982 and
                      1983 responded to the escalating cost of inpatient care by setting
                      upper limits on payments and providing hospitals with incentives
                      to control Medicare patient expenses.

                      Beginnng in October 1983 , Medicare patient care in short- term
                      general hospitals was covered by a prospective payment system
                      (PPS). This system pays for most of the hospital's inpatient service
                      through a predetermined amount , based upon the patient
                      medical condition , for each discharge. The actual amount of PPS
Prospective Payment   payment is determined by classification of the patient s medical
System                condition into one of 471 diagnosis related groups (DRGs) and a
                      blend of national and hospital specific information about past and
                      current hospital costs. A unique payment rate is thus established
                      by DRG for each hospital. Since the rate is paid irrespective of
                      actual costs , each Medicare admission provides the opportunity to
                       make or lose money.
                       While PPS pays most claims at the DRG rate , more or less than
                       the DRG amount can be paid. Additional monies are paid if an
                       unusually high cost or long length of stay is involved. The PPS
                       amount may also be reduced or denied in total.

                       The PPS regulations make a payment distinction between the
                       hospital transferring a patient and other discharges. A full DRG
Payment Distinction    payment is made for a discharge based upon the assumption that
                       the discharging hospital provides the major part of the care
                       needed. On the other hand , the transferring hospital is paid either
                       the full DRG rate , or a reduced amount , depending upon the
                       circumstances of each transfer. (See exhibit A.
                METHODS OF CALCULATING HOSPITAL PAYMENTS
                     WHEN TRANSFERS OCCUR


    The following examples , from the preamble to the interim final regulations in
    the Federal Register at 48 F. R. 39759 (Sept. 1 , 1983), ilustrate payment for
    transfers to another short term acute hospital:

    Example 1 :   A patient stays at Hospital A for 2 days and is subsequently
    transferred to Hospital B. The prospective payment rate is $10 000 at each
    hospital , with an average length of stay of 10 days for the DRG. Hospital A
    would be paid $2 000 (2/10 x $10 000) and Hospital B would be paid $10 000
    the full PPS payment rate. Total payment is $12 000.

    Example 2 :  A patient stays at Hospital A for 8 days and is subsequently
    transferred to Hospital B. The prospective payment rate is $10 000 at
    Hospital A and $12 000 at Hospital B. The average length of stay for the
    DRG is 5 days. The payment to Hospital A would be limited to $10 000 , the
    full prospective payment rate , since the length of stay exceeds the average
    length of stay for the DRG. Hospital B would be paid the full prospective
    payment rate of $12 000. Total payment is $22 000.

    Example 3 :  A patient stays at Hospital A for 2 days under DRG X , which has
    an average length of stay of 10 days. The prospective payment rate is $10 000
    for the hospital for X. He is subsequently transferred to Hospital B under
    DRG Y. The prospective payment rate at Hospital B is $16 000 for DRG Y.
    Hospital A would be paid $2 000 (2/10 x $10 000). Hospital B would be paid
    $16 000 , the full prospective payment rate for DRG Y at Hospital B. Total
    payment is $18    000.
    Example 4 : A patient stays at Hospital A for 4 days under DRG X , which has
    an average length of stay of 8 days. The prospective payment rate at Hospital
    A is $16 000 for DRG X. He is subsequently transferred to Hospital B for 4
    days under DRG Y which has an average length of stay of 10 days. The
    prospective payment rate is $10 000 for DRG Y. He is finally transferred to
    Hospital C. The prospective payment rate for DRG Y in this hospital is
     $15 000. Hospital A would be paid $8 000 (4/8 x $16 000). Hospital B would
    be paid $4    000 (4/10 x $10   000). Hospital C would be paid $15   000 , the full
     prospective payment rate for DRG Y at Hospital C. Total payment is
     $27 000.

Exhibit A
                      A full DRG rate is paid whenever a length of stay is equal to or
Reduced Payment
      greater than the national mean for the DRG. A portion of the full
to Transferring       DRG is paid when the transfer occurs earlier. The reduced
Hospital              payment is calculated by dividing the hospital DRG payment by
                      the national mean length of stay, and then multiplying this per
                      diem amount by the patient's length of stay.

                      Guidance on distinguishing transfers from other discharges is

                      found in 42 CFR 412.4. For the purpose of this report , a transfer

                      exists when:


                          1) the patient is transferred from one short- term PPS

                              hospital to another short- term PPS hospital , or

What is a Transfer?
                          2) the   patient is tranferred from a PPS hospital to a

                              hospital that is excluded from PPS because of a

                              statewide cost control program or demonstration

                              project , or to a hospital whose first PPS cost

                              reporting period has not yet begun.


                      The circumstances of the patient's departure from a hospital are
                      coded by the hospital on the Medicare claim form. Exhibit B
                      shows the possible status codes that can be entered on the hospital
                      claim form. The particular code used depends upon individual
                      circumstances.

Requirement for        Correct payment of claims involving a transfer depends upon (1)
Correct Transfer       accurate identification by the transferring hospital or peer review
Payment                organization (PRO) review and (2) proper application of the

                       regulations regarding the claim payment by the intermediary.


                       Early in the plannng process for PPS , the OIG recognized , as did
                       others , the vulnerability of transfers to incorrect payment. The
                       HCFA' s requirement that PROs review all transfers and all
                       related readmissions was seen as a safeguard to prevent
                       overpayments.

                        Hospital failure to identify the transfer may be detected during the
                      ; adjudication of the Medicare claim. At the time of this inspection
Detection of a         the PRO was required to review hospital admissions occurring
Miscoded Transfer       within 7 days of a previous discharge , if the discharge appeared
                      . related. This PRO review permits identification of the transfer
                        when a related admission exists. When the intermediary is
                        notified , payments are adjusted (lowered) in applicable cases.
                                     *****                                           *****




                                        UB- 82 (HCFA Form 1450)
                                       and Oiscllarge Status Codes

         The tollowing is a copy 
ot the hospital billing torm submitted to
          intermediaries in order to receive payment tor hospital services (STAT).
                                                                            provided
          to Medicare patients.              Field 21 reters to discharge status code
          Below are a list o! the possible entries which can be entered by the

          hospital depending on the circumstances

                                                   ot the patients
          discharge/transfer.




                                                                         Transr"r to anoth"r PPS ' Hospital


  Discharge Status Codes:


  Code          Description            (Source: Hospital Kanual, Sac. (25)

           Discharged to home or sel! care (routine discharge)
           Discharged/transferred to another 6hort-term general hospital
           Discharged/trans!crred to skilled nursing !acility (SNF) (rCF)
           Discharged/trans!erred to an intermediate care !acility
           Discharged/trans!erred to another type o! institution (including
           distinct parts)
           Discharged/trans!erred to home under care o! home health service
           Le!t against medical advice
           Patient expired (or did not recover - Christian Science Patient)




                                                                                       APPROVED O 8 NO. 09Ja.Q2M




                                                                                                  1-'
         .Qo-

                                             TH TOP   PORTION OF   T? UB-B2   FORM



Exhibit B

                OBJECTIVES


         This inspection centered upon identifyng overpayments due to
         full DRG payments being made for transferred patients when only
         a pro rata payment was due.

         Specifically:

                         Were Medicare PPS transfer claims accurately
                         coded by the hospital?

                         Were the transfer claims accurately paid   by the
                         Medicare contractors?

                         What procedures were in place to detect and
                         correctly pay transfer claims when the hospital
                         failed to code the transfer?
Issues
                         If overpayments were made, how many claims
                         were involved and what was the amount
                         misspent dollars?

                         Were there any distinguishing features of either the
                         patients or providers involved in cases where a
                         Medicare overpayment was mad?

                         What steps can be taken to strengthen the
                         transer-related adinistrative processes and
                         procedures and reduce vulnerabilities?
                       ........
                            ....  .....
                                   ....   .....     ..........
                                             ..........
                                                      ..:......   .....
                                                                   :..... .....  .....
                                                                           .... \\\.
                      ::::::::::::;:::::::::::::;:::::::::::::::::::::::;:::
                      ::::::::::::::;;::::::::::;:::::::;:::::::::::::::::::
                        :::::::::::;                                                     ......
                                                                                         ....       ...
                           ::::::::::::::::::::::;:::::::::::::;:::::::::::::::::::::::::::::::::::::::::::::::::::::::
                             :.;.;.:.;.:.:.;.:.:.:.:.;.:.;.;.:.:.:.:.:.;.:.;.:.:.:.:.:.
                              \\\\.
                              :::::::::::
                                 :;:;
                                    :::;:;:::::::::::::;::::::::
                                                          ::::::::
                                                               ::::
                                                               ::::::::::::;:::::::::::::::;:;:::::::::::::::::::::::
                                                                ::::::::::::::::::::::;
                                                                    ::::::::::;:::;:;
                                                                      :::\.
                                                                         :..:.:.;.;.;.;.:.:.:.:.:.;.:.:.
                                                                                 ::::
                                                                                   :::::;:::::;:::;::
                                                                                     ::::::::
                                                                                       \\\\.
                                                                                          \..\\\\.
                                                                                           ::::::::::
                                                                                                 :::;.:::::
                                                                                                   :::::::                         ~~~




            DEVELOPMENT OF SAMPLE FOR REVIEW

                OF POSSIBLE OVERAYMOOS DL TO

                     MlSCODING OF TRASFER





                          :l. \II:::\:\\I,
                                      I:.\I\:\I\\. I\.II:\.:II\1. 11\.



                                    ffBtW::::gm:::i::,l:




                      ??t\rrtfrrf/rr\fffttf\t))ftt




                                  CA O\fA Yt                                                :




                                                                                                             POSSIBLE MI9::OED CLRItD

                                                                                                        SImLE 10 REVIEU fOR OVERP
       EN1S

                                                                                                                          (N=48)




                                                                         THESE 48 CLAIMS REPRESENT POSSIBLE OVERPAYMENTS
                                                                                                       IF THE READMISSION
                                                                   TO BE INVESTIGATED TO DETERMINE 


Exhibit C                                                                                    AS THE RESULT OF A TRANSFER OR NOT.
                              METHODOLOGY


                  The ideal framework to evaluate the transfer issues was a review of
                  all possible transfers during a time period. Since thousands of
                  these situations exist each year , we identified a national sample
National Sample   Medicare discharges for analysis. The file used for the sample
of Same Day       selection was the master record of Medicare experience
Readmissions      maintained by the Health Care Financing Administration
                  (HCFA), the Federal agency responsible for the day- to- day
                  operations of the Medicare and Medicaid programs. The sample
                  period was Fiscal Year 1985 , which was the most recent year with
                  data sufficiently complete for analysis.

                  Th' esampling technique selected all discharges with Medicare
                  beneficiary numbers ending with terminal digits 095 and 595. The
                  size of the sample was two- tenths of 1 percent of the national total.

                  Since the objective included a review of all possible transfers , no
                  regard was given to patient discharge status in selecting the
                  sample. All claims were identified and listed where two or more
                  inpatient claims included the same day. (See exhibit C.)

                  Four hundred and forty paired claims were identified
                  representing a variety of situations. Some were readmissions to the
                  same hospital. Other claims were coded to show a transfer from
                  one hospital to another or showed discharges from a short- term
                  acute hospital to a hospital or hospital unit excluded from the PPS
                  system.

Sample with 48    Fort-eight of the paired claims met the requirements for analysis:
Possible
Overpayments              1) the discharge claim was not    coded as a transfer
                          2) the receiving hospital   was a PPS hospital
                          3) the claim was paid ,   and
                          4) the hospital length of stay in the first hospital was
                             less than the national mean for the DRG.

                  The next step was to determine facts surrounding the 48 paired
                  claims and to establish the criteria to use in defining a transfer.

                  The Federal regulations and hospital manual instructions do not
                  provide guidance in all identified situations. For example , the
                  patient left one hospital and was taken by private car to another
                                     -- - - -- -                                           ..**.***...****..*                                                            *.*....
                                                                                                                                                                   -------------




                                                                                  VERifiED OVRPAYMNTS

          ..********************.*. TRASFERRI NG HOP IT Al                                                                        **.**** RECE I VI NG HOSP I TAL

          fIrst Acri ss ion -

                                                   u-- - - - -- -- -- u -- --u         -- - ---- --u --- - -   MED I CARE         secon Acri ssi s ion---
                                        ACTUAL              CORRECT                HOSP AVER       STAY        MISCOOING          HOSPITAL
 CASE     HOSP IT AL
                                                                                                                                   STATE           TYPE BEDS       Reirr $     DRG
           STATE         TYPE BEDS       Reirr $             Reirr 5 DRG stay              LOS     DIFf Dest OVERPAYMENT
    Z%=======	 r2Z=Z================================================================================================z==
                                                                                                                       267                         *10    617                  018
                                                                 $76 296
                               120             , 86                   1 12                                            5327                                3/3 513 296          108

                                                                                                    1.8                007                                438      517 01,6    108
                                               , 124             117 122
                                                                                          11.9                         817                                538      $17 059     108
                                                   502           685 121
                                                                                          11.9                         579                                21,0     529 , 17    104
                               171                 1,69          890 121
                                                                                          11.      10.             $10 229                                231          905     1,52
                               560        511 202               $973 112
                                                                                                                       873                                285                  331
                               569                 455           582 125
                                                                                                                       750                                310          791     125
                               183                 296                6 138
                                                                                                                        156                               569          685     31,6
                               300                 107          5951 346
                                                                                                                       $193                                             193    116
                               201,         51,718               525 1
                                                                5290 122	                                               564                               561           097
                                                 697            5932 121                  11.9                      52, 765                               168       51, 633    138
                                                                                                                        1,98          11,                 1,26          006    145
             11,               220          54 , 889             391 122
                                                                                                    1,.                 531,                              287         5525     122
             11,               163               817              283 122
                                1,9            5976             $8 180                                                                                    500
                                                                                                                                                          500           331
                                                                                                                                                                               207
                                                                                                                                                                               135
                                                   801            580 138                                              $221
                                                                                                                        592                         11,   1,61          567     195
                                100                592             $0 207
                                                                                                                                      1,5                 1181          1,35    139
                                158                726          5258 132
                                                                                                                       5411                                301,         611,    116
                                                   257	         S86 138
                                                                                           11.9                         638                                757          079     140
                                 31,	              603            965 121
                                                                  2181,16                                               079                                301,      52, 906 308
                                                   218
                                                                                                                       5898                                1,09         788     11,0
                                                   1,            $513 11,0
                                                                                                     1,.                    135                            268          323     296
                           12 (100                 566           5431 1,03
                                                                                                                            675                            198          131     101
  21,	                          1,59               776            101 087
                                                                                                                            036                             1,2         565     236
                                225                293            257211                   15.
                                                                                           11.                              302                            112          750     1,03
                                1,72                631        $5, 329     112
                                                                                                                            049       31,                  333          311,    236
                                388.	               923          5871,      253
                                                                                                                        $726                               225          102     197
                                                    1,1,1        $715 207
                                                                                                                        $520                               291,         696     397
                                 51,	               1,90         $970 096
                                                                                                     1.5                $538                               687          295     125
                                205                 972	          1,31,     11,0
                                                                                                                         822                               1,64     $27 095     106
                                260                 901           079 121                  11.9
                                                                                                                         980           1,3                 1,56         983     110
              1,3               151,                304          $324 130
                                                                                                                            111        1,1,                296           565    127
              1,1,                                  990            879 121                  11.9
                                                                                                                                                           253       $ 2,784    205
              1,5               155                 511          5439       171,                     3.7                    072        1,5

                                                                                                                            929        1,5                1127      $10 078     1,00
              1,5                 1,3        $3, 430             $501 011
                                                                                                                            213        1,5                  841,    $11 899      109
              1,5               162                 619            1,06 121                 11.9
                                                                                                                            715                             142          175    002
              1,5	                                  1,77         $762 014
                                                                                                                            159        1,5                  258          832    157
              1,5                                   1,65         $306 140
                                                                                                                      51, 878          1,9                  1,01        557      1,09
              1,9               1,21,        $2, 167             $289           21,3
                                                                                                                            903                             376     513 058      107
   1,0                          303                 755          5852 121,
                                                                                                      1,.                 737                               1,65    $13 451      107
   I,                            121                 191           1,54         122
                                                                                                          107      043 110
                                                                                                                      $2, 347
   1,2                               732      $385 130
                                                                       ==================================================zz=
               =:==x====z=z:z=== ==:=u========u=c==z=================
                                                                   1,.               900                  1,02     971,
            AVERAGE:       185       534       615      1,.


         This table represents data gathered on
                          1,2    overpaymts                    SAXPLE TOTAL
                                                                                                                                        $79 801.1,
         fou        in our semle of         1,8    possible miscoded transfers.
                                                                                                               OVERPAYKENTS

         The remining 6 claims are not Included as they were

         fou to be correctly cod and paid.	                                                                                                        adend
                                                                                                               *facl tI ty typ:             8 ee
                                                                                                                Dest * discharge status

Exhibit D	
                      hospital to obtain care for a condition diagnosed at the first
                      hospital. Was this situation a transfer? What facts must exist for
                      classification of a transfer? The questions were addressed by
Classification of
    classifyng a discharge as a transfer when (1) the patient was
a Transfer            directly admitted to the second hospital and (2) the patient'
                      medical record established the staff at the first hospital , including
                      the attending physician , had prior knowledge of the second
                      admission.

                      Fact finding on the sample records was extensive. We requested
                      the medical records from the two hospitals involved with the
Extensive Review of   paired stay. Claim procedures and claim processing facts were
Patient Records       obtained from the cognizant intermediaries and peer review
                      organizations. Exhibit D summarizes several of the pertinent facts
                      regarding claims from our sample.

                      We also discussed the transfer rules with regional and central
                      office RCF A staff when questions arose in our analyses.     Patients

                      or the patients ' representatives were interviewed to determine
                      transfer facts from the patients ' perspectives.
                                     ANAL YSIS OF SAME DAY READMISSIONS

                                                TO ANOTH ACUE HOSPTAL

                                                 NOT   CO AS A TRANFE

                                                        SI       sIze IS




                                                                           12.   57.     CORRECT PAYMENTS (6)
                                                                                               CLRlft C(Jllcrr /'IO
                                                                                              (oISCHR G( SIRTVS COOC5
                                                                                              C(JIlCT RN(/O PRYNNr
                                                                                                    ROJ.ST(O)
                                                      87. 57.


       SAMPLE OVERPAYMENTS (42)

             CLRI/T THRT SHOOO

             HRV( BaN COO(O RN(

               PRIO R5 I RNsr(
             10lSCHIWIi srRIU5 DC)



                                                                           DATA REPRESENTS AN ANAlYSIS OF 1985 CLAIMS FOR

                                                                           TWO TENTHS OF ONE PERCENT OF BENEFICIARIES
                                                                           THOSE WITH MEDICARE HIC TERMINAl DIGITS 095&595.





                                           SAMPLE OVERPAYMENTS (42)
                                                   TRR
                                                     CONG
                                               CAUSN OVERAYMEN

                                       01 SCHQRGE 10 HonE

                                           CODe 01 (5 57.)





                                                 coDe 05 (28. 67.) J
                                                    TR
                                                    OTH T'

                                                    It6TITVI                     THIS GRAPH DEPICTS THE wRONG DISCHARGE
                                                                                 STATUS CODE ENTERED IN ERROR WHICH CAUSED
                                                                                 THE 42 OVERPAYMENTS IN THE SAMPLE.

ExhIbit E

                                FINDINGS


                  We estimate that failure to pay hospital tranfers    accurately

                  resulted in incorrect payments of $39. 9   million in 1985.



                  Forty- two of the 48 paired hospital claims were not correctly
                  coded. (See exhibit E. ) This caused overpayments of $79 801.

. $39 Milion      Sample findings were projected to the universe by multiplying

  Misspent        findings by the inverse of the sampling fraction. We estimate , at

                  the 90 percent confdence interval , the total amount misspent was

                  $38 to 41 million.


                  . In the original sample of 48 possible overpayments , only 1 case was
                    referred by the PRO and an adjustment made by the intermediary.

                   The circumstances of the 42 overpaid claims were analyzed for
                   insight on specific corrective actions. We found:

                           . 12 percent of the claims involved an interstate

                              transfer;

                           . 31 percent of the claims from the transferring.

                              hospital had not becn reviewed by a PRO;

                           . 50 percent of the claims had been reviewed by
                              the PRO and the transfer was identified;
                              however , the PRO had not notified the
                              intermediar of the transfer status change; and

                           . 7. 7 percent of the claims were referred by the
                              PRO for intermediar adjustments , but no
                              adjustments were made.

                       Note: The percentages given above caot be projected to the
                       unverse because of the small sample size.

                   Since the current PPS system does not advise PROs of admissions
 No Review of      in other States and since the current PRO review does not include
 Transfers         100 percent of readmissions , correction of transfer vulnerabilities
 Between States    wil require more than improved communication between the
                   PRO and the intermediary.
                              ~~~                     ::::::                                           ......
                                                                                                   ... ""',     ........   ..... ...... ....... .....
                                                                                                  :.:.:.:.;.:.:.:.:.:-..",....
                                                                                                   ::::::-
                                                                                                         ::: :::::-:: :-::''':-::                             :....
                                                                                                                                                          ~~~~~
                                                                                                                         ..........................................
                                                                                                                                                         ;.:.:.
                                                                                                                                                             ::;::::::::;
                                                                                                                                                                .:.:.:.:




       PRO CLAIM REVIEW AND COMMUNICATIONS WITH THE FI
                        (fTECT             AN fW T               5T A     TV em           a-S


                                                                                                           smFm:1

                              iY

                                                                                                                                      LL REL TED REOOI1S
                                                                                                                                      TO NOIHER HOSPI1I1
                                                                          PRO REV I EWER                                                             RE TO
                                                                                                                                     WI1HIN 7 DAYS
                                      ! NPUT REV I EU                   REVIEWS RECORD                                                    BE REVIEWED
                                           fiNDINGS                       roo J:CI.CY                                                      BY THI PRO




                                                                                     HARD
                                                               OII\                  COpy
                                                                SlR;
                                                                 fi'                 MEMO

             wl 

   ELC1R
  .ATT
             1'J
 SYSTD IJ


    TAF                                                        5YST01 ffErK

                                                                        it.
                        TWO   \.S      Foo

                    c;.NA TN HJsP Al ,tt,

                         flG E





                 tNTE               NEI

              ru   ITER Awv-'

             CVV' OJ SySTEM

                                                                                                                                 :-:-:-:-:O:::-'':-:O:-:-:-:-:-:­




                                                      IH5YTfN BR                   Prop   adjustments do rot                          ocnr             v,en the system
                                                      FiJils. This Failrre      seem to be the rule trere tha the excepticn
                                                      The reason is 
     th electrcnh tap spciFiciJtions are rot desig-ed
                                                       to include    en   adjustmt Field For dischage status  code chages
                                                      not aFFec tinS          th   CR. Had coPY meos Fiji I For
                                                                                                           one of tuo
                                                      reascns.    1)    PR Fail to sen them becausedoes
                                                                                                    they do not
                                                                                                        not iJct.
                                                                                                                                                                            iJFFect

                                                      CR chcge       or   c) IF sent the lnierdicry
Exhibit F

                      The PRO Manual (section 2050. 1 D) charges the PRO with the
                       responsibility " .for identifying all cases involving transfers from a

                       PPS hospital to any other ... acute hospitaL. ; however , there is no

                       PRO requirement to review all same- day discharges and

                       admissions and thus be able to identify the unreported transfer.


                       The manual instructions (PRO Manual addendum A) are not clear
                       concerning PRO reporting of claims where the intermediary needs
                       to recover transfer-related overpayments. The record layout
                       describes the specific action needed by the intermediary through a
                        combination of two data fields. Field 8 tells the intermediary an
Weaknesses in PRO     . adjustment is needed and the nature of the adjustment (e.
and Intermediary        admission denied , DRG change , etc. ). Field 12 provides the
Instructions            specific information needed by the intermediary to act (e. , the
                        new DRG). While field 12 reports the PRO- identified transfer
                       field 8 does not provide a code for a transfer adjustment. The end
                       result is no recovery of the overpayment unless ad hoc agreements
                       solve this problem. (See exhibit F.)

                       The PRO and the intermediary in some states have made
                       arrangements to overcome the deficiency. Some 16. 7 percent of
                       State PROs responding to a survey (3 out of 18 rcspondents)
                       presently communicate all status code changes to intermediaries
                       through electronic computer tape. In our sample , only one of the
Few PROs Transmit      intermediaries had acted upon the PRO- identified transfer and
Status Code Changes    recovered the overpayment. Of those not using electronic tape
                       communication for status changes , 27. 8 percent (5 respondents)
                       use hard copy letters to inform intermediaries. The PROs not
                       communicating status code changes (56 percent) stated their
                       responsibility was to only inform intermediaries of status code
                       changes which change the DRG.

                       Vulnerabilities in the intermediary and PRO identification of
                       tranfers and the related communication problems in the
Hospital Error
        Medicare PPS system are the most significant findings. However
Causes    iscoding     we also found major problems in the hospitals. (See exhibit G. )     A
                       survey of the overpaid hospitals attributed 84 percent of the status
                       code errors to communication problems within the hospital.

                       While the survey showed most hospitals recognized the status code
                       error , 16 percent of the hospitals did not recognize the transfer
                       even after reviewing the circumstances which clearly show
                       transfer occurred.
            POSSIBLE REASONS FOR DISCHARGE CODING ERRORS





                                                    HOSPIT AL
                                               NURSE/DOCTOR ERROR

               PATIENT                           MfAL RECORD FAILS TO

               MEDICAL
               RECORD
                                                NJA TF CORRECn
                                               PATEN IS GONG OR
                                                                    Y
                                                                     NI
                                                                     WHE
                                                                     STAFF

                                              FAL TO CORCny RfATF STATUS TO

                                                                                 THE




                                               TI ADMISSION/BILLNG DEPARTMETS



                           tClUl eRm ()

                              18-81 Q.ln
                            I'
                            Olso                           HOSPIT AL

                               rISTRnJEHlER
                           an 1M
                                                BILLING CLERK ERROR

                                                  DA T A   INUT ERROR OR CLERK

                                               MA Y NOT UMJERSTAND TH CORRECT

                                                USE OF MEDICARE STA TU CODES





                                                INTERMEDIARY ERROR

                                                   A DATA ENTY aER ERRS

                                                       W/N ENIN          FROM

                                                   A HARD COPY HOSPfT AL BIL
                                                  (TI PROBLEM CANVOT OCCLR
                                                 . WIT HOSPTALS WHO SUBW
                                                  71R. QAIMS ELECTRONCALL Y)



              NTY   DATA




                                                              HCFA
                                                       POLICY ISSUE

                                                 SOlv READMfSIO!\'5 TO     TI-R
                                                  HOSPALS ARE DffCUL T
                                                  CLASSIFY (ex. Referrals from
                                                  transferring hospitol physician

                                                      fa speciofist of another
                                                             hospitd)
Exhibit G
                         The hospitals disagreeing to the transfer classification did so

                         reasoilng:


                                    the tranfer was not one which directly involved
                                    arrangements by the hospital (e. , the patient
                                    went to the second hospital by private
                                    transportation with arrangements made between
Hospital Reasoning                  physicians) or
Differs
                                    the medical condition triggering the transfer is a
                                    new event , and the hospital views the care
                                     complete " for the problems involved in the first
                                    stay.

                        The majority of hospitals which miscoded the discharge status of
                      . the patient reported the reason for such a mistake as an error on
                        the part of biling department staff responsible for recording
                        discharge status. Hospital staff, according to the sample , coded
. Discharge to " Home   the transfer as a discharge home (code 01) more often than any
 Entered in Error       other code. This may be due in part to the fact that most hospital
 Most Often             discharges are discharges home which hospital staff routinely
                        enter. As a consequence , staff may use it without thinkng.
                        Another reason was given by one hospital which reported that its
                        computer system defaults to a " home " discharge status code
                        whenever biling clerks fail to enter a code.


                          The second most commonly misused status code was code as
                           discharge to another tye institution. " The most probable reason
                          for misuse of this code was lack of understanding of the use of the
Confusion with            two codes. This lack of understanding was expressed by a medical
Transfer to Other         records director who emphatically believed (in error) that sending
Type Institution          a patient to another tye of institution (code 05) was appropriate
                          when its hospital did not have the capabilities to treat the patient.
                          Clearly, his statement represents a lack of understanding as to the

                          and a tranfer to another   tye   institution.
                          distinction between a transfer to another short- term acute hospital


                          Reasons for tranferring patients fell into two basic groups:

                                  1) patient request (N = 5)   and

                                 2) need for specialized care (N =37).

                     Patient requests for transfers were generally to relocate near
                     relatives and friends. As an example , patients may go to a large
                     teaching hospital to have a special heart procedure done , but
                     prefer to return to a hospital close to home for the rehabilitation
                     phase of their treatment.

Most Miscoded        The most common need for special care was in the area of
Transfers are for    cardiology (55 percent). Twenty- nine percent (12 of 42) of the
Cardiac Procedures   overpaid claims were for cardiac catheterization.
                           RECOMMENDATIONS



                     Instructions concerning tranfer cases should provide for clear
                     responsibilty on the part of the hospital , the intermediary and the
                     PRO for identification and correct payment of the transfer.

                             . The HCF A should periodically review (or
                                provide the PRO access to national data) the
                                posted PPS claims to identify those where
                                interstate movement of an inpatient occurred
HCFA Identiication              and where the stay in the first hospital is less
of Interstate                   than the national mean. Claims identified
Movement                        should be referred to the PRO servcing the first
                                hospital for a determination on the transfer
                                question.

                     The HCFA responded that the operational problems and cost
                     associated with implementation of this recommendation would far
                     exceed the return in benefits. Also , it stated that insufficient data
                     was given to warrant such review.

                     The HCF A has acknowledged that a vulnerability exists within the
                     present reimbursement system, but it is unable to correct the
                     problem because of a lack of required computer system
                     sophistication. Based on our results , an estimated $5 million in
                     1985 was overpaid because of undetected     interstate transfers. As
                     HCFA develops the systems capability to identify these claims
                     data concerning them should be provided to the PROs to
                     determine whether a transfer had taken place , and if so , to adjust
                     payment as needed.

                             . The PRO review should be strengthened to
                                require determination of the status code
Strengthen PRO                  accuracy of discharges where an admission to
Review                          another PPS hospital occurred within 1 day of
                                the discharge and was not coded as a transfer to
                                another short- term   acute hospitaL


                     The new PRO contract requirements for 1988 require the review
                     of 25 percent of all readmissions to another or the same PPS
                     hospital within 30 days of discharge. The HCF A believes that this
                     will address the problem , because hospitals found to have a
                     pattern of improperly coding discharge destinations will be placed
                  on intensified review. We continue to believe that requiring the
                  PRO to review 100 percent of readmissions within 1 day would
                  not only identify undetected transfers , but would also be a valuable
                  source of information concernng premature discharge and other
                  potential mistreatment.

                          . The Medicare    Hospital Manual should include a
                             section on the transfer issue and should , through
                             examples , provide additional clarification to the
Hospital Manual              hospital on the definition of a transfer and
Guidance                     calculation of correct payments. One situation
                             that should be included in the manual involves
                             transfers arranged by the physicians where other
                             hospital staff may not be involved in the transfer.

                  The HCF A concurred with this recommendation and is in the
                  process of preparing instructions to provide additional clarification
                  to hospitals.

                          . The magnetic tape specifications for

Computer Tape                communication of PRO adjustments to the
Specification                intermediary should be expanded to include
Change                       transfer status changes as an adjustment code in
                             field eight.

                  The HCF A concurred with the recommendation and is in the
                  process of making computer tape specification changes.
Addendum
                          ADDENDUM
 REFERENCE CHAT FOR EXHIBIT D: TYPE OF FACILITY OWNERSHIP

                      TYPE OF OWNRSHIP

                   CODE       DESCRIPTION



                              FOR PROFIT

                              INDIVIDUAL
                              PARTNRSHIP
                              CORPRATION
                              PROPRIETARY
                              OTHER

                              NON-PROFIT
                              INDIVIDUAL
                              PARTNRSHIP
                              CORPRATION
                              PRIVATE
                              CHUCH
                              OTHER

                              GOVT.     NON-FED
                              STATE
                              COUNY
                              CITY
                              CITY/COUNTY
                              HOSP. DIST . / AUTH
                              COMB. GOVT. & VOL
                              LOCA GOVT.
                              OTHER
                              GOVT. (NON OR FED)

                              GOVT - FED
                              VET. ADM.

                              PHS. HOSP.

                              MILITARY
                               FEDERA
                              OTHER
                              OTHR
                               INVALID/MISSING

                   RADARS-CHATS-SECTION-VI          PG. VI.
CODES WITH APPLICABLE DESCRIPTIONS AND RADARS IDENTIFIER CODE

